OIG FREEDOM OF INFORMATION ANNUAL REPORT — FY 2010
I. BASIC INFORMATION REGARDING REPORT
   1. Name, title, address, and telephone number of person(s) to be contacted with
      questions about the Report.
              Robin Brooks
              Director, Freedom of Information/Privacy Acts
              Office of the Inspector General
              United Sates Department of Health and Human Services
              330 Independence Ave, S.W., Suite 1062
              Washington D.C. 20201
              (202) 619-2541
   2. ELECTRONIC ADDRESS FOR THIS REPORT ON THE WORLD WIDE WEB:


   3. ADDRESS FOR PAPER COPIES OF THIS REPORT
      Contact Robin Brooks at the address or telephone number listed above, or the link shown:
       http://oig.hhs.gov/foia.html


II. HOW TO MAKE A FOIA REQUEST
   Requests may be submitted electronically at: http://oig.hhs.gov/foia/submit.asp

              Office of Inspector General (OIG)
              Freedom of Information Officer
              Cohen Building, Suite 1062
              330 Independence Ave, S.W.
              Washington, D.C. 20201
              Phone: 202-619-2541


   1. Brief description of why some requests are not granted: Documents requested were
      protected by an exemption and release would have caused harm to the interest protected
      by the exemption. Information withheld may include home addresses and phone
      numbers, social security numbers, medical records, proprietary business records,
      investigatory records, that if released may interfere with open investigations, and drafts of
      documents.




Freedom of Information Annual Report — FY 2010                                                   1
III. ACRONYMS, DEFINITIONS, AND EXEMPTIONS:
    1. Agency-specific acronyms or other terms:
           HHS - U.S. Department of Health and Human Services
           OPDIVs - Operating Divisions of HHS
           OS - Office of the Secretary, HHS
           OASPA - Office of the Assistant Secretary for Public Affairs, HHS
           AoA - Administration on Aging
           ACF - Administration for Children and Families
           AHRQ - Agency for Healthcare Research and Quality
           ATSDR - Agency for Toxic Substances and Disease Registry
           CDC - Centers for Disease Control and Prevention
           FDA - Food and Drug Administration
           HRSA - Health Resources and Services Administration
           IHS - Indian Health Service
           NIH - National Institutes of Health
           OIG – Office of the Inspector General
           OPHS - Office of Public Health and Science
           PHS - Public Health Service
           PRO - Professional Review Organization
           PSC - Program Support Center
           SAMHSA - Substance Abuse and Mental Health Services Administration
    2. Basic terms (from FOIA UPDATE, Summer 1997):
           a. Administrative Appeal – a request to a federal agency asking that it review at a
              higher administrative level a FOIA determination made by the agency at the
              initial request level.
           b. Average Number – the number obtained by dividing the sum of a group of
              numbers by the quantity of numbers in the group. For example, of 3, 7, and 14,
              the average number is 8.
           c. Backlog – the number of requests or administrative appeals that are pending at an
              agency at the end of the fiscal year that are beyond the statutory time period for a
              response.
           d. Component – for agencies that process requests on a decentralized basis, a
              “component” is an entity, also sometimes referred to as an Office, Division,
              Bureau, Center, or Directorate, within the agency that processes FOIA requests.
              The FOIA now requires that agencies include in their annual report data for both
              the agency overall and for each principal component of the agency.

 Freedom of Information Annual Report — FY 2010                                                  2
         e. Consultation – the procedure whereby the agency responding to a FOIA request
            first forwards a record to another agency for its review because that agency has an
            interest in the document. Once the agency in receipt of the consultation finishes
            its review of the record, it responds back to the agency that forwarded it. That
            Agency, in turn, will then respond to the FOIA requester.
         f. Exemption 3 Statute – a federal statute that exempts information from disclosure
            and which the agency relies on to withhold information under subsection (b)(3) of
            the FOIA.
         g. FOIA Request – a FOIA request is generally a request to a federal agency for
            access to records concerning another person (i.e., a “third-party” request), or
            concerning an organization, or a particular topic of interest. FOIA requests also
            include requests made by requesters seeking records concerning themselves (i.e.,
            “first-party” requests) when those requesters are not subject to the Privacy Act,
            such as non-U.S. citizens. Moreover, because all first-party requesters should be
            afforded the benefit of both the access provisions of the FOIA as well as those of
            the Privacy Act, FOIA requests also include any first-party requests where an
            agency determines that it must search beyond its Privacy Act “systems of records”
            or where a Privacy Act exemption applies, and the agency looks to FOIA to
            afford the greatest possible access. All requests which require the agency to
            utilize the FOIA in responding to the requester are included in this Report.
            Additionally, a FOIA request includes records referred to the agency for
            processing and direct response to the requester. It does not, however, include
            records for which the agency has received a consultation from another agency.
            (Consultations are reported separately in Section XII of this Report.)
         h. Full Grant - an agency decision to disclose all records in full in response to a
            FOIA request.
         i. Full Denial - an agency decision not to release any records in response to a FOIA
            request because the records are exempt in their entireties under one or more of the
            FOIA exemptions, or because of a procedural reason, such as when no records
            could be located.
         j. Median Number - Median Number – the middle, not average, number. For
            example, of 3, 7, and 14, the median number is 7.
         k. Multi-Track Processing – a system in which simple requests requiring relatively
            minimal review are placed in one processing track and more voluminous and
            complex requests are placed in one or more other tracks. Requests granted
            expedited processing are placed in yet another track. Requests in each track are
            processed on a first in/first out basis.
                  (A) Expedited Processing – an agency will process a FOIA request on an
                      expedited basis when a requester satisfies the requirements for expedited
                      processing as set forth in the statute and in agency regulations.
                  (B) Simple Request – a FOIA request that an agency using multi-track
                      processing places in its fastest (non-expedited) track based on the low
                      volume and/or simplicity of the records requested.


Freedom of Information Annual Report — FY 2010                                                  3
                   (C) Complex Request – a FOIA request that an agency using multi-track
                       processing places in a slower track based on the high volume and/or
                       complexity of the records requested.
          l. Partial Grant/Partial Denial – in response to a FOIA request, an agency
             decision to disclose portions of the records and to withhold other portions that are
             exempt under the FOIA, or to otherwise deny a portion of the request for a
             procedural reason.
          m. Pending Request or Pending Administrative Appeal – a request or
             administrative appeal for which an agency has not taken final action in all
             respects.
          n. Perfected Request – a request for records which reasonably describes such
             records and is made in accordance with published rules stating the time, place,
             fees (if any) and procedures to be followed.
          o. Processed Request or Processed Administrative Appeal – a request or
             administrative appeal for which an agency has taken final action in all respects.
          p. Range in Number of Days – the lowest and highest number of days to process
             requests or administrative appeals.
          q. Time Limits – the time period in the statute for an agency to respond to a FOIA
             request (ordinarily twenty working days from receipt of a perfected FOIA
             request).
   3. Concise descriptions of the nine FOIA exemptions:
          a. Exemption 1: classified national defense and foreign relations information
          b. Exemption 2: internal agency rules and practices
          c. Exemption 3: information that is prohibited from disclosure by another federal
             law
          d. Exemption 4: trade secrets and other confidential business information
          e. Exemption 5: inter-agency or intra-agency communications that are protected by
             legal privileges
          f. Exemption 6: information involving matters of personal privacy
          g. Exemption 7: records or information compiled for law enforcement purposes, to
             the extent that the production of those records
                   (A) could reasonably be expected to interfere with enforcement proceedings,
                   (B) would deprive a person of a right to a fair trial or an impartial
                       adjudication,
                   (C) could reasonably be expected to constitute an unwarranted invasion of
                       personal privacy,
                   (D) could reasonably be expected to disclose the identity of a confidential
                       source,


Freedom of Information Annual Report — FY 2010                                                   4
                  (E) would disclose techniques and procedures for law enforcement
                      investigations or prosecutions, or would disclose guidelines for law
                      enforcement investigations or prosecutions, or
                  (F) could reasonably be expected to endanger the life or physical safety of
                      any individual
         h. Exemption 8: information relating to the supervision of financial institutions
         i. Exemption 9: geological information on wells




Freedom of Information Annual Report — FY 2010                                                  5
IV. EXEMPTION 3 STATUTES
                                                     Number of       Total Number
                    Type of                          Times Relied   of Times Relied
                    Information                      upon per              upon by
 Statute            Withheld         Case Citation   Component              Agency
 OIG




 Freedom of Information Annual Report — FY 2010                                  6
V. FOIA Requests
   A. Received, Processed, and Pending FOIA Requests
                   Number of                                                       Number of
                   Requests               Number of           Number of            Requests
                   Pending as of          Requests            Requests             Pending as of
                   Start of Fiscal        Received in         Processed in         End of Fiscal
                   Year                   Fiscal Year         Fiscal Year          Year
OIG                                  24                 563                  569                   18




Freedom of Information Annual Report — FY 2010                                                      7
      B. (1) Disposition of all FOIA Requests – All Processed Requests
                                   Number of Full Denials Based on Reasons Other than Exemptions
              Numb                          All
              er of                         Records                                   Improp
              Partial   Number              Referred                                  er
              Grants    of Full             to                     Fee-     Records   FOIA         Not               Other
     Numb     /         Denials             another                Relate   not       Request      Agenc             “Explai
     er of    Partial   Based on   No       Compone    Request     d        Reasonab for           y       Duplica   n in
     Full     Denial    Exemptio   Recor    nt or      Withdra     Reaso    ly        Other        Recor   te        chart     Tot
     Grants   s         ns         ds       Agency     wn          n        Described Reason       d       Request   below”    al
OI      129      114          30       60         19          23       13         16       71         62        10       22    569
G




Freedom of Information Annual Report — FY 2010                                                                                   8
      B. (2) Disposition of FOIA Requests – Other Reasons for “Full Denials Based on
      Reasons Other than Exemptions” from Section V, B (1)
                             Description of “Other”
                             Reasons for Denials from
                             Chart B (1) & Number of
                             Times Those Reasons Were
Component                    Relied upon                   TOTAL
OIG                          Records on OIG Website                                     8
                             No Response from Requestor                                 7
                             Enjoined from Release by                                   2
                             Court Order
                             Administratively Closed                                    5




OIG Total                                                                              22




Freedom of Information Annual Report — FY 2010                                          9
      B. (3) Disposition of FOIA Requests - Number of times exemptions applied

                                                         Ex.         Ex.        Ex.         Ex.        Ex.         Ex.        Ex.       Ex.
            Ex. 1   Ex.2   Ex.3   Ex.4   Ex.5    Ex.6    7(A)        7(B)       7(C)        7(D)       7(E)        7(F)       8         9
OIG             0      2      0     60     37      107          30          0          50          3          20          0         0         0




Freedom of Information Annual Report — FY 2010                                                                                           10
VI. ADMINISTRATIVE APPEALS OF INITIAL DETERMINATIONS OF FOIA
     REQUESTS
       A. Received, Processed, and Pending Administrative Appeals
                                                                           Number of
                 Number of                            Number of            Appeals
                 Appeals Pending     Number of        Appeals              Pending as of
                 as of Start of      Appeals Received Processed in         End of Fiscal
                 Fiscal Year         in Fiscal Year   Fiscal Year          Year
 OIG                             0                  0                  0                    0




       B. Disposition of Administrative Appeals – All Processed Appeals
                        Number Partially                             Number of
            Number      Affirmed &                                   Appeals
            Affirmed    Partially         Number Completely          Closed for
            on          Reversed/Remanded Reversed/Remanded          Other
            Appeal      on Appeal         on Appeal                  Reasons       TOTAL
 OIG                0                     0                     0              0            0




       C. (1) Reasons for denial on Appeal – Number of Times Exemptions applied

          Ex. Ex. Ex.     Ex.   Ex. Ex.    Ex. Ex. Ex. Ex. Ex. Ex. Ex. Ex.
          1   2   3       4     5   6      7(A) 7(B) 7(C) 7(D) 7(E) 7(F) 8 9
 OIG




 Freedom of Information Annual Report — FY 2010                                            11
            C. (2) Reasons for denial on Appeal – Reasons other than exemptions
                                                                                                  Appeal
                                                                                                  Based
                                                                                                  Solely on
                     Records                                 Improper                             Denial of    Other
                     Referred                     Records    Request         Duplicate            Request      Explain
                     at Initial           Fee-    Not        For      Not    Request   Request    For          in
             No      Request Request      Related Reasonably Other    Agency Or        In         Expedited    Chart
             Records Level      Withdrawn Reason Described   Reasons  Record Appeal    Litigation Processing   Below
OIG                0          0            0           0          0          0    0   0         0          0        0




      Freedom of Information Annual Report — FY 2010                                                           12
      C. (3) Reasons for denial on Appeal – Other:
             Description of “Other” Reasons for Denial on Appeal
             from Chart C (2) & Number of Times Those Reasons
             Were Relied upon                                       TOTAL
OIG          0                                                                       0




      C. (4) Response time for administrative appeals (See chart)
                 Median Number     Average            Lowest Number     Highest Number
                 of Days           Number of Days     of Days           of Days
OIG                            0                  0                 0                0




Freedom of Information Annual Report — FY 2010                                      13
      C. (5) Ten Oldest Pending Appeals (See Chart)
                   10th
                   Oldest                                                             Oldest
                   Appeal    9th       8th        7th   6th   5th   4th   3rd   2nd   Appeal
OIG      Date of   0         0         0          0     0     0     0     0     0     0
         Receipt
         of Ten
         Oldest
         Appeals
         Number
         of Days
         Pending
         Date of
         Receipt
         of Ten
         Oldest
         Appeals
         Number
         of Days
         Pending
         Date of
         Receipt
         of Ten
         Oldest
         Appeals
         Number
         of Days
         Pending




Freedom of Information Annual Report — FY 2010                                            14
 VII. FOIA REQUESTS: RESPONSE TIME FOR PROCESSED AND PENDING REQUESTS
         A. Processed Requests – Response Time for Perfected Requests in Which Information Was Granted
             Simple                                    Complex                             Expedited Processing
             Median Average Lowest Highest Median Average Lowest Highest Median Average Lowest Highest
             Number Number Number Number Number Number Number Number Number Number Number Number
             of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days
OIG                   3       1         1        22        65      95        21      539         0         0      0        0




      Freedom of Information Annual Report — FY 2010                                                                  15
      B. Processed Requests – Response Time for Perfected Requests in Which Information Was Granted
         Simple                                    Complex                              Expedited Processing
         Median       Average Lowest Highest Median Average Lowest Highest Median Average Lowest Highest
         Number       Number Number Number Number Number Number Number Number Number Number Number
         of Days      of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days
OIG               1        3       1        22         81     113        21       539         0         0      0        0




  Freedom of Information Annual Report — FY 2010                                                                   16
   C. Processed Requests – Response Time in Day Increments
      1.   Simple Requests
                                 41–    61–      81-    101-   121-   141-   161-   181-   201-   301-
                1–20     21-40   60     80       100    120    140    160    180    200    300    400    401+
                Days     Days    Days   Days     Days   Days   Days   Days   Days   Days   Days   Days   Days   TOTAL
OIG                483       1      0      0        0      0      0          0         0      0      0      0      484




Freedom of Information Annual Report — FY 2010                                                                      17
      2.   Complex Requests
                                       81-       101-   121-   141-   161-   181-   201-   301-
           1–20    21-40   41–60 61–80 100       120    140    160    180    200    300    400    401+
           Days    Days    Days Days Days        Days   Days   Days   Days   Days   Days   Days   Days   TOTAL
OIG            0      24      14     16      8      4      5      2      3      1      4      2      2       85




Freedom of Information Annual Report — FY 2010                                                               18
      3.   Requests Granted Expedited Processing
                                       81-           101-   121-   141-   161-   181-   201-   301-
            1–20 21-40     41–60 61–80 100           120    140    160    180    200    300    400    401+
            Days Days      Days Days Days            Days   Days   Days   Days   Days   Days   Days   Days   TOTAL
OIG             0      0       0      0          0      0      0      0      0      0      0      0      0       0




Freedom of Information Annual Report — FY 2010                                                                  19
   D. Pending Requests – All Pending Perfected Requests
               Simple                                    Complex                          Expedited Processing
                             Median        Average                  Median     Average                  Median        Average
               Number        Number        Number        Number     Number     Number     Number        Number        Number
               Pending       of Days       of Days       Pending    of Days    of Days    Pending       of Days       of Days
OIG                      3             1             8         15         65         36             0             0             0




Freedom of Information Annual Report — FY 2010                                                                              20
   E. Pending Requests – Ten Oldest Pending Perfected Requests
           10th
           Oldest                                                                                                    Oldest
           Request                                                                                                   Request
           and                                                                                                       and
           Number                                                                                                    Number
           of Days                                                                                                   of Days
           Pending     9th         8th         7th           6th         5th        4th        3rd        2nd        Pending
OIG        8/31/2010   8/27/2010   8/27/2010     8/27/2010   8/10/2010   8/4/2010   8/4/2010   7/6/2010   6/7/2010   3/15/2010
               22            24          24          24            37          41         41         62         83     142




Freedom of Information Annual Report — FY 2010                                                                               21
VIII. REQUESTS FOR EXPEDITED PROCESSING AND REQUESTS FOR FEE WAIVER
     A. Requests for Expedited Processing
                                                                                  Number
                                                Median           Average          Adjudicated
                                                Number of        Number of        Within Ten
                Number          Number          Days to          Days to          Calendar
                Granted         Denied          Adjudicate       Adjudicate       Days
  OIG                       0               0                0                0                 0




  Freedom of Information Annual Report — FY 2010                                           22
   B. Requests for Fee Waiver
                                                     Median         Average
                 Number                              Number of Days Number of Days
                 Granted            Number Denied    to Adjudicate  to Adjudicate
OIG                             0                3               1               1




Freedom of Information Annual Report — FY 2010                                  23
IX. FOIA PERSONNEL AND COSTS
                   Personnel                          Costs
                                         Total
                              Number of Number
                   Number of “Equivalent of Full-
                   “Full-Time Full-Time  Time                Litigation-
                   FOIA       FOIA       FOIA     Processing Related     Total
                   Employees” Employees” Staff    Costs      Costs       Costs
 OIG                           3          2       5     $88,000   $5000   $93,000




 Freedom of Information Annual Report — FY 2010                                  24
X. FEES COLLECTED FOR PROCESSING REQUESTS

                              Total Amount of Fees
                              Collected                      Percentage of Total Costs
 OIG                                              $4161.00                          4.73%




XI. FOIA REGULATIONS
 http://www.hhs.gov/foia/45cfr5.html




 Freedom of Information Annual Report — FY 2010                                          25
XII. BACKLOGS, CONSULTATIONS, AND COMPARISONS
    A. Backlogs of FOIA Requests and Administrative Appeals
                              Number of Backlogged           Number of Backlogged
                              Requests as of End of Fiscal   Appeals as of End of Fiscal
                              Year                           Year
 OIG                                                    11                                  0




 Freedom of Information Annual Report — FY 2010                                            26
   B. Consultations on FOIA Requests – Received, Processed, and Pending Consultations
                 Number of                               Number of            Number of
                 Consultations                           Consultations        Consultations
                 Received from                           Received from        Received from
                 Other Agencies     Number of            Other Agencies       Other Agencies
                 that Were          Consultations        that Were            that Were
                 Pending at Your    Received from        Processed by         Pending at Your
                 Agency as of       Other Agencies       Your Agency          Agency as of
                 Start of the       During the           During the           End of the
                 Fiscal Year        Fiscal Year          Fiscal Year          Fiscal Year
OIG                             0                    0                    0                0




Freedom of Information Annual Report — FY 2010                                            27
   C. Consultations on FOIA Requests – Ten Oldest Consultations Received from Other
      Agencies and Pending at Your Agency
           10th
           Oldest                                                                                  Oldest
           Request                                                                                 Request
           and                                                                                     and
           Number                                                                                  Number
           of Days                                                                                 of Days
           Pending 9th       8th       7th       6th       5th       4th       3rd       2nd       Pending
OIG               0      0         0         0         0         0         0         0         0         0




Freedom of Information Annual Report — FY 2010                                                          28
   D. Comparison of Numbers of Requests from Previous and Current Annual Report –
      Requests Received, Processed, and Backlogged
         (1) Requests Received and Processed
                             Number of Requests            Number of Requests
                             Received                      Processed
                             Number         Number         Number         Number
                             Received       Received       Processed      Processed
                             During         During         During         During
                             Fiscal Year    Fiscal Year    Fiscal Year    Fiscal Year
                             from Last      from           from Last      from
                             Year’s         Current        Year’s         Current
                             Annual         Annual         Annual         Annual
                             Report         Report         Report         Report
OIG                                   419            563            410            569




Freedom of Information Annual Report — FY 2010                                      29
         (2) Requests Backlogged

                    Number of Backlogged Requests     Number of Backlogged Requests
                    as of End of the Fiscal Year      as of End of the Fiscal Year from
                    from Previous Annual Report       Current Annual Report
OIG                                              21                                   11




Freedom of Information Annual Report — FY 2010                                        30
   E. Comparison of Numbers of Administrative Appeals from Previous and Current
      Annual Report – Appeals Received, Processed, and Backlogged
         (1) Appeals Received, Processed
                 Number of Appeals Received            Number of Appeals Processed
                 Number             Number             Number            Number
                 Received           Received           Processed         Processed
                 During Fiscal      During Fiscal      During Fiscal     During Fiscal
                 Year from Last     Year from          Year from Last    Year from
                 Year’s Annual      Current Annual     Year’s Annual     Current Annual
                 Report             Report             Report            Report
OIG                             0                  0                 0                0




         (2) Appeals Backlogged
                    Number of Backlogged               Number of Backlogged
                    Administrative Appeals as of       Administrative Appeals as of End
                    End of the Fiscal Year from        of the Fiscal Year from Current
                    Previous Annual Report             Annual Report
OIG                                                0                                  0




Freedom of Information Annual Report — FY 2010                                       31
